No. ______

In the Supreme Court of the United States
MARK O’KEEFE & DALE HARTKEMEYER (AKA SEIGEN), PETITIONERS
v.
WILLIAM P. BARR, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

CAPITAL CASE – EXECUTIONS SCHEDULED FOR JULY 15 AND JULY 17, 2020

MICHAEL M. KRAUSS
GREENBERG TRAURIG, LLP
90 South Seventh Street, Ste.
3500
Minneapolis, MN 55402
KYLE R. FREENY
GREENBERG TRAURIG, LLP
2101 L Street, N.W., Ste. 1000
Washington, D.C. 20037
ABIGAIL A. CLAPP
GREENBERG TRAURIG, LLP
77 W. Wacker Drive, Ste. 3100
Chicago, IL 60601
EDWARD C. WALLACE
GREENBERG TRAURIG, LLP
200 Park Avenue
New York, NY 10166
Counsel for Mark O’Keefe

DOUGLAS HALLWARD-DRIEMEIER
Counsel of Record
MARIA G. CALVET
MICHELLE H. BEHRENS
JOHN T. DEY
ROPES & GRAY LLP
2099 Pennsylvania Avenue, N.W.
Washington, D.C. 20006
(202) 508-4600
Douglas.Hallward-Driemeier@
ropesgray.com
DAVID D. COLE
DAVID C. FATHI
DANIEL MACH
HEATHER L. WEAVER
JENNIFER WEDEKIND
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, N.W.
Washington, D.C. 20005
CASSANDRA STUBBS
AMY FLY
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
201 W. Main Street, Ste. 402
Durham, NC 27701
Counsel for Dale Hartkemeyer

QUESTION PRESENTED
Where a priest has a sacred religious duty to minister last rites to a prisoner under
his pastoral care, does scheduling the prisoner’s execution during a pandemic at
significant risk to the priest’s health and life violate his religious exercise rights under
RFRA?

PARTIES TO THE PROCEEDINGS BELOW AND RULE 29.6 STATEMENT
The following list provides the names of all parties to the proceedings below:
Petitioners Mark O’Keefe and Dale Hartkemeyer (aka Seigen) were the appellants
in the court of appeals.
Respondents William P. Barr, in his official capacity as Attorney General of the
United States, Michael Carvajal, in his official capacity as Director of the Federal Bureau
of Prisons, and T.J. Watson, in his official capacity as Complex Warden of the Federal
Correctional Complex, Terre Haute, were the appellees in the court of appeals.

2

In the Supreme Court of the United States
No. ______
MARK O’KEEFE & DALE HARTKEMEYER (AKA SEIGEN), PETITIONERS
v.
WILLIAM P. BARR, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
_________
Petitioners Fr. Mark O’Keefe and Rev. Seigen Hartkemeyer respectfully petition
for a writ of certiorari to review the judgment of the United States Court of Appeals for
the Seventh Circuit.
OPINIONS BELOW
A copy of the order of the court of appeals is provided in the Appendix at B1. A
copy of the opinion of the district court is provided in the Appendix at (App. C1-C8).
JURISDICTION
The district court had jurisdiction under 28 U.S.C. § 1331 and 42 U.S.C. § 2000bb1(c). The court of appeals had jurisdiction under 28 U.S.C. § 1292(a), and issued its order
denying Petitioners’ emergency motion to stay the executions pending appeal on July 15,
2020. The jurisdiction of this Court rests on 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
42 U.S.C. § 2000bb et seq. is reproduced at App. E1-E2.

5

STATEMENT OF THE CASE
Petitioners are two priests who serve as spiritual advisors for two federal
prisoners, whose executions are scheduled for today, July 15 and Friday, July 17, 2020 at
the United States Penitentiary in Terre Haute, Indiana. Both priests—one Roman
Catholic and one Zen Buddhist—have a sincere religious belief that they must minister
to these men under their spiritual care in their final hours, providing Catholic Last Rites
and the Buddhist equivalent, respectively. Accordingly, both priests feel compelled by
their faiths to be present at the respective executions.

BOP regulations formally

recognize that right, 28 C.F.R. § 26.4(c)(3)(i), reflecting longstanding historical practice
in this country.
But the Federal Government has rendered effectively impossible their ability to
fulfill this solemn religious obligation by scheduling the executions—just one month in
advance—in the midst of the ongoing and deadly COVID-19 pandemic. Because both
priests are in their 60s and are medically vulnerable, each is at heightened risk of
suffering serious health complications or even death should he contract the virus. USP
Terre Haute is currently experiencing an outbreak of COVID-19 among its prisoner
population, and the Government recently disclosed that at least one person involved in
setting up for the executions has tested positive for the disease. Add to that the facts
that (1) each execution will entail an influx of hundreds of people—prison staff, witnesses,
victims’ and prisoners’ family members, and press—from around the country and (2) the
Death House where the executions will take place is poorly ventilated and comprises
6

small, cramped spaces where social distancing is impossible, and the risk for a superspreader event is plain.
The Government has done little to address the risk to those who will attend. It
has refused to conduct testing as a precautionary measure. It has not updated the
ventilation system at the Death House, which is a prime factor for exacerbating the
spread of COVID-19 indoors in cramped settings. Instead, the Government has offered
only minimal precautions, agreeing to provide masks (not N-95 masks, for the most part),
some other personal protective equipment, hand sanitizer, and temperature checks. For
petitioners, whose presence is required on-site for hours, these precautions are entirely
inadequate. Thus, they must make an impossible choice between fulfilling their religious
duties and subjecting themselves to grave risk, or abandoning their essential obligations
as priests. The Government’s insistence on scheduling the executions during a pandemic,
with no regard for their safety or the safety of others in attendance, places a substantial
burden on Petitioners’ ability to freely exercise their faith in accordance with their
religious callings, and is plainly not the least restrictive means by which the Government
may fulfill its objectives.
Petitioners challenged the Government’s scheduling decision as an impermissibly
infringement of their right to free exercise under the Religious Freedom Restoration Act
(RFRA), 42 U.S.C. § 2000bb et seq.

Breaking with this Court’s well established

precedents, the district court denied petitioners’ claims for injunctive relief, and the court
of appeals denied Petitioners’ request for an emergency stay of the executions pending
appeal in a single-page order.

7

The district court’s holding denies Petitioners’ core free exercise rights as priests
in a setting that this Court has routinely held to merit serious consideration for such
rights. Indeed, this Court has recently issued a stay of execution pending a petition for
certiorari in another case in which a state denied a priest access to offer Last Rites at an
execution. See Gutierrez v. Collier, No. 19-8695 (June 16, 2020) (granting application for
stay of execution pending disposition of petition for writ of certiorari and instructing
district court to conduct further fact-finding regarding potential security concerns).
Petitioners similarly ask this Court to hold that the Federal Government cannot
substantially burden the exercise of this most profound religious rite—necessarily
involving the presence of a spiritual advisor—without a compelling need to do so.
A.

The Historical Role of Clergy at Executions

The Government jeopardizes a revered tradition in the United States of clergy
presence in the last moments before and at the time of death of prisoners who are
executed by the state. See, e.g., Historical Newspaper Articles, Hartkemeyer v. Barr,
Case No. 2:20-cv-00336-JMS-DLP (S.D. Ind.), ECF No. 60-3 at 1-3; see also Stuart Banner,
The Death Penalty: An American History 1 (2002) (recounting execution where the
condemned asked a clergyman to read his final words for him). This tradition derives, in
the Christian tradition, from the Christian belief that a person’s dying moments are
critical to salvation and that, just as Jesus Christ ministered to the men being crucified
alongside him, see Luke 23:42-43, clergy must help the condemned to seek salvation. See,
e.g., Ralph Houlbrooke, Death, Religion, and the Family in England, 1480-1750 147–49
(1998) (“The last moments of life were believed to be crucially important during the later

8

Middle Ages. . . . [A]t this critical juncture, the Church offered help generally regarded
as indispensable in making a safe departure from the world . . . .”). 1 At the nation’s
founding, a clergyman’s “execution sermon” from the scaffold went hand-in-hand with
“the formulaic lives, last words, and dying confessions of the prisoner[.]” Louis P. Masur,
Rites of Execution: Capital Punishment and the Transformation of American Culture
1776-1865 26 (1989). This clerical role “was so routine that in 1791 William Smith could
publish a guide-book for ministers [that contained] suitable devotions before, and at the
time of Execution.” Id. at 18.2
Federal executions have long recognized the hallowed place of clergy and followed
this tradition. The first known federal execution, the hanging of Thomas Bird in 1790,3
incorporated “solemn religious exercises.” See Portland, Cumberland Gazette, June 28,
1790 (Hartkemeyer, ECF No. 60-3 at 1). As in other executions of the day, the practice
of federal executions contemplated ministry from and ritual performed by clergy up to
the place and time of death. See May 10, Vergennes Gazette & Vt. & N.Y. Advertiser,
May 29, 1800, ECF No. 60-3 at 2 (reporting federal executions in which condemned

1

The state of mind of a person at the moment of passing away is also very significant for
karmic reasons in the Buddhist faith, and a priest’s ability perform final religious rituals
is thus vital for many Buddhists to ensure a proper “liberation from the limitations and
sufferings inherent in our condition as separate human beings.” App. G4-G5.

2

Unsurprisingly, these American traditions were similar to English practices during the
colonial era. See, e.g., Randall McGowen, The Body and Punishment in EighteenthCentury England, 59 J. Mod. Hist. 651, 651 (1987) (“The condemned . . . were accompanied
by a clergyman who shadowed their last moments urging them to repent or consoling
them with the offer of divine forgiveness.”).
See “Historical Federal Executions,” United States Marshals Service, available at
https://www.usmarshals.gov/history/executions.htm (last checked July 3, 2020).

3

9

prisoners were “attended to the place of execution” by clergymen, where they prayed
and expressed contrition); The Execution of Edward F. Douglass and Thomas Benson
for the Murder of Ava A. Havens, Bos. Herald, Jul. 28, 1851, at 1 (reporting federal
executions in which clergymen accompanied and embraced prisoners on the gallows, and
then conveyed their final declarations of innocence).
The tradition of clergy accompaniment during federal executions has since been
incorporated into firing squads, see R. Michael Wilson, Legal Executions in the Western
Territories, 1847-1911, 173 (2010); the gas chamber, see Arthur Brown Executed In Gas
Chamber, Streator Daily Times-Press, Feb. 24, 1965 (Hartkemeyer, ECF No. 60-3 at 3);
and electrocutions, as when a rabbi accompanied Ethel and Julius Rosenberg to the
electric chair in 1953, see Jack Woliston, Rosenbergs go silently to electric chair, UPI
(June 20, 1953), https://www.upi.com/Archives/1953/06/20/Rosenbergs-go-silently-toelectric-chair/5084629411212/.4 Clergy have thus traditionally played a revered role in all
manner of federal executions. Today, the role of clergy at execution is memorialized in
BOP regulations that enable a prisoner to select a spiritual advisor as one of the few
specifically designated individuals who “shall be present at the execution.” 28 C.F.R.
§ 26.4(c)(3)(i).
B.

The Petitioners
1.

Father Mark O’Keefe

4

See also Ari L. Goldman, Rabbi Irving Koslowe, 80; Gave Rosenbergs Last Rites, N.Y.
Times, Dec. 8, 2000, at C15 (describing the same rabbi’s attendance at 17 executions
where “[h]e would go into the execution chamber, stand opposite as the inmate was
strapped into the electric chair, and stay until the end”).
10

Father Mark O’Keefe is a Roman Catholic priest, Order of St. Benedict. Before
the COVID-19 pandemic, Fr. O’Keefe routinely ministered, as a Federal Bureau of
Prisons (BOP)-accredited volunteer, to prisoners at the United States Penitentiary in
Terre Haute, Indiana (USP Terre Haute), including to Dustin Honken. App. H1. Mr.
Honken, a devout and pious Catholic for more than ten years, is scheduled for execution
on July 17, 2020. Id.
On June 30, 2020, Mr. Honken designated Father O’Keefe as the spiritual advisor
to attend his execution, and requested that Fr. O’Keefe accompany Mr. Honken in the
execution chamber. Id. On or about July 5, 2020, the BOP approved this request.
Hartkemeyer, ECF No. 60-2.
Catholicism requires Fr. O’Keefe’s presence at Mr. Honken’s execution to allow
him to administer the holy sacraments prescribed by the Catholic Church for the dying,
including the Last Rites, which can be performed only by an ordained Catholic priest.
App. H1-H2. The Catholic Church teaches that the final moments offer a unique final
chance for a priest to prepare the dying for “our heavenly homeland” and for pardon and
redemption, as the moment of death “decides [man’s] ultimate destiny.” Catechism of the
Catholic Church §§ 1013, 1525; see also id. §§ 1501-02, 1524.

The guidance and

accompaniment of a priest, and the Last Rites and the sacraments of the Eucharist and
Confession which Fr. O’Keefe must administer to Mr. Honken help the dying avail
themselves of the redemption offered by Jesus for eternal life with God. App. H2-H3, H5.
See also Liturgy Training Publications, The Liturgy Documents Volume Two: Essential
Documents for Parish Sacramental Rites and Other Liturgies 228 (2nd ed. 2012) (“The

11

presence of a priest or deacon shows more clearly that the Christian dies in communion
with the church,” and is “intended to help the dying person, if still conscious, to face the
natural human anxiety about death by imitating Christ in his patient suffering and
dying.”).5
Based on his ministry to Mr. Honken, consistent with Catholic teachings, and in
honor of his religious duty as a Catholic priest, Fr. O’Keefe feels spiritually and morally
bound to administer the sacraments and minister to Mr. Honken as he is put to death.
App. H1-H3, H5. Consistent with Catholic teachings and his duty as a priest to perform
the Last Rites, Fr. O’Keefe holds a sincere belief that he must assist Mr. Honken in
availing himself of the redemption that the death of Jesus offers. App. H1-H3. Fr.
O’Keefe wholly subscribes to the Catholic teachings that he is called upon to minister to
those seeking God’s grace, particularly at the critical moment of death; doing so is one of
the most important roles that a priest can possibly play in helping a member of the flock
achieve salvation. App. H2-H3, H5. Fr. O’Keefe’s sincerely-held religious beliefs compel
him to accede to Mr. Honken’s request to be present at his execution, to administer the
sacraments necessary for salvation, and to prepare Mr. Honken to enter the next life in a
state of God’s grace. App. H2-H3, H5.

5

See also Pope encourages group working to end use of death penalty, Cath. News
Agency (Feb. 27, 2019), https://www.catholicnewsagency.com/news/pope-encouragesgroup-working-to-end-use-of-death-penalty-89197 (Pope stating that, in executions,
“there should at the very least be clergy available to hear a person’s confession and offer
reconciliation, even up to the moment of death”).
12

The scheduling of Mr. Honken’s execution during the ongoing COVID-19
pandemic means that Father O’Keefe can exercise his sincerely-held religious beliefs and
practices only by putting himself, and those he ministers to outside the prison, at grave
risk.

App. H1, H3-H6.

At age 64, Fr. O’Keefe is at heightened risk of serious

complications should he contract COVID-19. Id. ¶ 14. Exposure resulting from his
attendance at the execution also imperils Fr. O’Keefe’s ministry to the nuns who are
cloistered at the Carmelite Monastery in Terre Haute. Id. ¶ 19. As the Resident
Chaplain for the nuns and as an essential part of his own religious practice, Fr. O’Keefe
leads daily Mass for the nuns and offers them Communion. Id. Several of the nuns are
over the age of 60, and a few are over 80. Id. Fr. O’Keefe understands that his presence
at Mr. Honken’s execution will expose him to COVID-19 infection and even possibly
death. Id. ¶ 20. He and the cloistered nuns to whom he ministers also understand, that
if he continues to hold daily Mass for the nuns following Mr. Honken’s execution, as they
have requested and as he feels obligated to do, he may also expose them to infection and
even death. Id. As a consequence of the timing of Mr. Honken’s execution in the midst
of the pandemic, Fr. O’Keefe must take life-threatening risks in order to carry out his
sacred duties as a Catholic priest and as Mr. Honken’s spiritual advisor. Id.
2.

Reverend Seigen Hartkemeyer

Reverend Seigen Hartkemeyer is a Zen Buddhist priest. App. G1. Ordained in
1983, he feels a religious calling to minister to prisoners, who are “too often denied
Buddha’s immense compassion.”

Id. ¶ 4.

13

In connection with his ordination, Rev.

Hartkemeyer adopted the religious name “Seigen,” which means “Sacred Source.” Id.
¶ 2.
Rev. Hartkemeyer entered into a pastoral relationship with prisoner Wesley
Purkey in January 2009 and has since visited with Mr. Purkey once a month, prior to the
onset of the COVID-19 pandemic, to provide spiritual guidance and counseling consistent
with the Zen Buddhist faith. Id. ¶¶ 7-8.
In 2013, Mr. Purkey designated Rev. Hartkemeyer as his official Minister of
Record with the BOP. Id. ¶ 9. And, in November 2019, pursuant to federal regulations,
Mr. Purkey designated Rev. Hartkemeyer as the spiritual advisor who “shall be present”
at his execution, which was previously scheduled for December 13, 2019, at USP Terre
Haute. Id. ¶ 16. Accordingly, Rev. Hartkemeyer planned to attend the December 2019
execution, consistent with his sincere religious belief that he has a sacred duty as Mr.
Purkey’s priest to help ensure Mr. Purkey’s spiritual “liberation from the limitations and
sufferings inherent in our conditions as separate human beings” as Mr. Purkey leaves this
life. Id. ¶ 13. However, since learning that Mr. Purkey’s execution has been rescheduled
to take place on July 15, 2020, during the pandemic, Rev. Hartkemeyer has felt
substantial pressure to abandon his religious obligations as Mr. Purkey’s priest due to
the grave risk to his health and life as a result of the Government’s decision to proceed
during a pandemic. Id. ¶¶ 18, 29. Rev. Hartkemeyer is 68 years old and is vulnerable to
lung-related illnesses, having suffered recurring bouts of severe bronchitis and pleurisy.
Id. ¶¶ 26-27. He understands that these characteristics render him medically vulnerable
for developing severe complications or dying if he were to contract COVID-19, and

14

accordingly has strictly limited his contact with others during the pandemic. Id. ¶¶ 2628.
As Mr. Purkey’s priest, Rev. Hartkemeyer intends to deliver a sutra, or a chant
with content and meaning, and a dharani, a mantra-like chant, during the execution to
facilitate Mr. Purkey’s dying process and convey equanimity to him. Id. ¶ 14. The
religious rituals that Rev. Hartkemeyer intends to perform are akin to the “last rites”
performed by priests in Christian tradition. Id. ¶ 13. It is important that Mr. Purkey be
able to see Rev. Hartkemeyer’s face during this process, to remind him of the many hours
the two spent together and the teachings Rev. Hartkemeyer shared during that time. Id.
¶ 14. Rev. Hartkemeyer believes that his inability to perform his sacred pastoral duties
would “constitute a troubling violation of [his] religious tenets and priestly obligations.”
Id. ¶ 15.
C.

Course of the Relevant Proceedings

On June 15, 2020, “with the COVID-19 pandemic well underway,” the Department
of Justice announced three back-to-back executions, including Mr. Purkey’s on July 15,
2020 and Mr. Honken’s on July 17, 2020, without adequate safety measures in place to
combat the risks from this highly contagious and deadly respiratory disease spreading
rampantly across the United States. See Peterson v. Barr, No. 2:20-cv-00350-JMS-DLP
(July 10, 2020); App. I2-I3. The Government made this decision even though carrying out
executions necessitates the “activation” of hundreds of individuals at the prison for
several days in advance to coordinate and practice. Hartkemeyer, ECF No. 6-30 ¶¶ 5, 8.
It ignored the clearly established CDC guidance that social distancing is a “cornerstone

15

of reducing transmission of respiratory diseases such as COVID-19.” App. I8. 6 It
disregarded the heightened risk of transmission in prisons where nine of the ten largest
outbreaks in the country have occurred. Hartkemeyer, ECF No. 7 at 4.7 And, it did
nothing to mitigate the specific and unique risk posed by the poor ventilation system at
USP Terre Haute, which cannot adequately direct airflow outside and prevent
recirculation. App. J3. It forged ahead with a plan that will bring hundreds of people to
the prison in the face of BOP’s own policy, in effect since March 2020, suspending all
visitation at all facilities because of public health risks. Hartkemeyer, ECF No. 6-6 ¶¶ 35, 11; App. G3-G4.
The Government disregarded the impact of COVID-19 cases at USP Terre Haute
reported as of May 16, 2020—a month before the Attorney General’s announcement—
and only a small fraction of prisoners and staff have been tested. Plaintiff’s Reply, ECF
62 at 7-8; see also Winter Decl. ECF 33-1, ¶ 7.

When a staff member involved in

execution preparations confirmed a positive test result on July 11, 2020, the Government
still did not change course even though the staff member had exposed others at the prison

6

See Centers for Disease Control and Prevention, Coronavirus Disease 2019 (COVID19, Interim Guidance on Management of Coronavirus Disease 2019 (COVID-19) in
Correctional
and
Detention
Facilities,
at
4
(Mar.
23,
2020),
https://www.cdc.gov/coronavirus/2019-ncov/downloads/guidance-correctionaldetention.pdf.
7
See John E. Dannenberg, Prisons as Incubators and Spreaders of Disease and Illness,
Prison Legal News (Aug. 15, 2007) (discussing that jails and prisons “have become
breeding grounds for infectious epidemics, with severe consequences for both prisoners
and
the
public
alike”),
available
at
https://www.prisonlegalnews.org/news/2007/aug/15/prisons-as-incubators-andspreaders-of-disease-and-illness/; Timothy Williams & Rebecca Griesbach, San Quentin
Prison was Free of the Virus. One Decision Fueled an Outbreak., N.Y. Times (June 30,
2020), https://www.nytimes.com/2020/06/30/us/san-quentin-prison-coronavirus.html.
16

complex—including those slated to attend the executions or in designated locations
where the spiritual advisors must go.

See generally Winter Decl. ECF 77-1;

Government’s Response to Order, ECF 81. Finally, the Government has not required
staff at USP Terre Haute to adhere to the very mandate to wear masks that the
Government suggests Rev. Hartkemeyer and Fr. O’Keefe should rely upon for their
safety. Hartkemeyer, Winter Decl., ECF No. 77-1 ¶7; Winter Decl. ECF No. 33-1 ¶7.
Indeed, reports confirm that, during the execution of Daniel Lewis Lee early in the
morning of July 14, 2020, no one in the execution chamber with Mr. Lee’s spiritual advisor,
including Mr. Lee, a U.S. Marshal, and two BOP officials, were wearing masks.8
The limited measures the Government belatedly devised to address the risk posed
to Rev. Hartkemeyer and Fr. O’Keefe are inadequate to protect them from the
substantial risk.

Dr. Goldenson Supp. Dec. ECF No. 57 ¶ 20; Dr. Feffererman Decl.,

ECF No. 58 ¶ 16. All told, they include the provision of personal protective equipment
(PPE)—a surgical face mask, gloves, gown and face shield—access to a shared sink, soap,
and individual hand sanitizer. See Winter Decl., ECF No. 33-1 at ¶12. The Government
will also provide an N-95 mask to the security escort—but no one else—and will attempt
to limit the number of people in contact with Rev. Hartkemeyer. Id. ¶¶ 11-12. But the
surgical masks to be provided to Rev. Hartkemeyer and Fr. O’Keefe will not eliminate
the risk of possible infection because they do not protect the wearer; they protect others
from the wearer, not the wearer from others. Dr. Goldenson Supp. Decl., ECF 57 ¶ 13.

8

See Michael Balsamo, First federal execution in 17 years; another set Wednesday, AP
News (July 14, 2020), https://apnews.com/638826b00bba1b389756126e4cfae97a.
17

Further, the security escort’s use of an N-95 mask provides limited, if any, extra
protection to Rev. Hartkemeyer and Fr. O’Keefe beyond a typical mask because N-95
masks, unlike surgical masks, are designed to protect only the wearer, not those around
the wearer.

Id.

And the Government has demonstrated an inability to enforce

compliance of its mask regulations in any event. Winter Decl., ECF 77-1 ¶7. Indeed, the
measures put in place by the Government “are inadequate to protect an individual who
is vulnerable to COVID-19,” according to Plaintiff’s uncontested expert testimony. Dr.
Goldenson Supp. Decl., ECF 57 ¶ 20. “Even with such measures in place, a vulnerable
individual is still at risk of contracting COVID-19 and suffering serious illness as a result.”
Id.
Moreover, Rev. Hartkemeyer and Fr. O’Keefe will be forced to have repeated,
close contacts in cramped quarters with BOP staff and others, both to visit Mr. Purkey
and Mr. Honken and to be present during the execution. Floyd Decl. 6-24 ¶¶ 9-12;
Hartkemeyer Decl., ECF 6-2 ¶¶ 19-25. The risk of airborne transmission of COVID-19
is “especially acute in indoor or enclosed environments, particularly those that are
crowded and have inadequate ventilation.” Dr. Goldenson Supp. Decl., ECF 57 ¶ 7
(quoting Lidia Morawska & Donald K. Milton, It is Time to Address Airborne
Transmission

of

COVID-19,

https://doi.org/10.1093/cid/ciaa939).

Clinical

Infectious

Diseases,

ciaa939,

Prison facilities are such an environment.

Dr.

Goldenson Decl., ECF 6-25 ¶ 22. Without adequate ventilation, the risk of COVID-19
transmission remains high, particularly in the small, windowless building where the
executions will take place. Dr. Goldenson Suppl. Dec, ECF 57 ¶ 12. Defendants have

18

taken no measures to ensure adequate social distancing and, more importantly, have
refused to consider practical measures to improve the ventilation in the areas where Rev.
Hartkemeyer and Fr. O’Keefe will be. See Response to Court’s Order, ECF 81 at 3. Such
measures include (1) ensuring sufficient and effective ventilation; (2) supplementing that
ventilation with airborne infection controls; and (3) avoiding overcrowding.

Dr.

Goldenson Suppl. Decl., ECF 57 ¶ 7.
In response to the late-breaking diagnosis of the BOP staff member, the
Government proposes only two additional steps: (a) to attempt to identify individuals
with whom the BOP staff member was in contact, and (b) to prevent those identified from
having direct contact with “inmates scheduled for execution, ministers of record,
witnesses of the execution, attorneys, or press.” Response to Court’s Order, ECF 81 at
5. These measures fail to mitigate the as yet unmeasured spread of and exposure to
COVID-19 at the prison complex. Nor do they reduce other points of exposure for the
medically vulnerable spiritual advisors. Dr. Goldenson Decl., ECF 6-25 ¶ 59, 61; Dr.
Goldenson Supp. Decl., ECF 80-1 ¶11. Further, the Government’s plan to use screening
measures the BOP has not updated since March 13, 2020, such as seeking self-reported
symptoms, conducting temperature checks, and taking the other basic steps, are
“insufficient to protect visitors from the risk of COVID-19” and cannot adequately screen
for new, asymptomatic, or pre-symptomatic infections. Dr. Goldenson Decl. 6-25 ¶44.
Indeed, they have already failed to do so.

19

D.

District Court Proceedings

Petitioners brought suit in the district court challenging Respondents’ scheduling
of Mr. Purkey’s and Mr. Honken’s executions during the pandemic as government action
that substantially burdens their free exercise rights in violation of the Religious Freedom
Restoration Act (RFRA), 42 U.S.C. § 2000bb et seq. Following expedited briefing, with
supporting declarations, the district court denied petitioners’ motion for a preliminary
injunction, finding that Petitioners had not demonstrated that Respondents’ actions
amounted to a substantial burden under RFRA because the BOP has “unconstrained
discretion to choose a date for the execution.” See Op., ECF No. 84 at 5. In reaching this
conclusion, the district court ignored the plain-text statutory command that RFRA
extends to “all Federal law,” even those statutes that otherwise give the government
broad latitude. 42 U.S.C. § 2000bb-3(a). Petitioners appealed, seeking an emergency stay
of the Mr. Purkey’s and Mr. Honken’s executions pending resolution of the appeal.
E.

Appellate Proceedings

On July 15, 2020, the court of appeals denied Petitioners’ motion in a one-page
order without issuing an opinion.
REASONS FOR GRANTING THE PETITION
I.

THE COURT OF APPEALS’S HOLDING THAT RESPONDENTS’ ACTION D OES NOT
AMOUNT TO A SUBSTANTIAL B URDEN ON PETITIONERS’ FREE EXERCISE
RIGHTS IS CONTRARY TO THIS COURT’S PRECEDENTS
This case presents a fundamental question of whether the federal government can

unnecessarily force clergy to risk their health and lives in order to carry out their sacred
obligations as spiritual advisors to prisoners facing execution. It warrants this Court’s

20

immediate review because the decision below failed to respect the religious
accommodation that RFRA requires.
The district court fundamentally erred in holding that the scheduling of an
execution during a raging pandemic cannot amount to a substantial burden under RFRA
because the BOP has “unconstrained discretion to choose a date for the execution.” See
App. C6. The amount of discretion vested in the government is irrelevant as a matter of
law. By its terms, RFRA’s reach extends to “all Federal law,” even those statutes that
otherwise give the government broad latitude. 42 U.S.C. § 2000bb-3(a) (“This chapter
applies to all Federal law, and the implementation of that law, whether statutory or
otherwise. . . ”); see also Bostock v. Clayton County, 140 S. Ct. 1731, 1754 (2020) (“RFRA
operates as a kind of super statute, displacing the normal operation of other federal
laws”); Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S. 418, 424,
(2006) (“Under RFRA, the Federal Government may not, as a statutory matter,
substantially burden a person’s exercise of religion, ‘even if the burden results from a rule
of general applicability.’” (quoting 42 U.S.C. § 2000bb-1(a)). Whether a government
decision is discretionary or not, RFRA applies if the government’s conduct substantially
burdens a person’s exercise of religion.
A substantial burden exists when the Government puts “substantial pressure on
an adherent to modify his behavior and to violate his beliefs.” Hobbie v. Unemployment
Appeals Comm’n, 480 U.S. 136, 141 (1987). Here, it is undisputed that Fr. O’Keefe’s and
Rev. Hartkemeyer’s sincerely held religious beliefs require them to attend to the spiritual
needs of Mr. Honken and Mr. Purkey, respectively, as these men face execution. The

21

Government’s conduct in setting the executions during a surging pandemic puts
“substantial pressure” on the priests to modify or abandon entirely the performance of
their sacred duties—in particular, the sacrament of the Catholic Last Rites (and similar
Buddhist rituals) at the moment of death. Because the Government insists on executing
Mr. Purkey and Mr. Honken this week, the priests can carry out this vital and essential
task only if they accept grave risk to their health and their lives.
The district court failed to address controlling precedent that forcing a person to
choose between his religion and his well-being is a substantial burden on the exercise of
religion. See Sherbert v. Verner, 374 U.S. 398, 404 (1963) (“The ruling [disqualifying
plaintiff from benefits because of her refusal to work on Saturday in violation of her faith]
forces her to choose. . . . Governmental imposition of such a choice puts the same kind of
burden upon the free exercise of religion as would a fine imposed against [her] for her
Saturday worship.”). There is no meaningful distinction between the priests here and the
plaintiff in Sherbert—except that the stakes here (and the health and lives of Petitioners)
are even higher. The Government did not order the Seventh-Day Adventist in Sherbert
to work or not to work—that “choice” rested with the individual. But, a substantial
burden existed because the Government undertook an action that forced the plaintiff to
choose between the exercise of religion, on the one hand, and physical or economic wellbeing, on the other. There, as in Thomas v. Review Bd. of Indiana Employment Div.,
450 U.S. 707, 718 (1981), “[w]hile the compulsion may be indirect, the infringement upon
free exercise is nonetheless substantial.” See also McDaniel v. Paty, 435 U.S. 618, 633,
593 (1978) (rejecting argument that “the law does not interfere with free exercise

22

[merely] because it does not directly prohibit religious activity”); Burwell v. Hobby
Lobby, 573 U.S. 682, 725-26 (2014).
As a Roman Catholic priest, Father O’Keefe is morally and spiritually obligated,
in the most sacred of duties, to minister to Mr. Honken at the time of death by
administering the sacrament of Last Rites. O’Keefe Decl. ¶¶ 2-4, 12-14, 20, ECF No. 422 at 2, 4, 6. The Catholic Church teaches, and Father O’Keefe sincerely believes, that
administering Last Rites is one of the most vital roles that a priest performs and is
essential to salvation. Id. ¶¶ 7-13, 20. The Government imposes this burden on Father
O’Keefe if he is to meet his religious obligations.9
Rev. Hartkemeyer has been Mr. Purkey’s priest for eleven years, and he believes
he has a sacrosanct religious duty to be present at Mr. Purkey’s execution, where he must
perform religious rituals (akin to Last Rites) to help guide Mr. Purkey as he leaves this
life. Hartkemeyer Decl. ¶¶ 2-15, ECF No. 6-2 at 2-5. For Rev. Hartkemeyer, his failure
to be present at Mr. Purkey’s execution to carry out these Buddhist rituals would
“constitute a troubling violation of [his] religious tenets and priestly obligations.” Id. at
¶ 15.
By forcing each priest to assume the risk of contracting and spreading COVID-19
to honor his sacred duties, the Government has imposed a substantial burden on his
exercise of religion. See Wisconsin v. Yoder, 406 U.S. 205, 218 (1972) (a substantial

9

Father O’Keefe also is morally and spiritually obligated, as “an essential part of [his]
ministry,” to administer Communion to elderly nuns at the Carmelite Monastery on a
daily basis. (Id. ¶ 19.) Because the Government insists on executing Mr. Honken this
week, Father O’Keefe must bear the burden not just of contracting COVID-19 himself,
but spreading it to “those closest to [him] in the faith.” (Id. ¶ 20.)
23

burden exists when the government compels a person to “perform acts undeniably at
odds with fundamental tenets of [his] religious beliefs”); Thomas v. Review Bd., 450 U.S.
707, 718 (1981) (substantial burden found where government action ‘put[s] substantial
pressure on an adherent to modify his behavior and violate his beliefs”).
Neither Lyng nor Bowen, relied on by Respondents and cited in the district court’s
opinion, App. C4, requires this Court to hold otherwise. In Lyng, the government sought
merely to make use of its own land; the plaintiffs, who had no ownership interest in the
land and no legal right to be present on the land, had no protected interest to assert. Lyng
v. Nw. Indian Cemetery Protective Ass’n, 485 U.S. 439, 453 (1988). In Bowen, the
government used a Social Security Number in its internal administration of benefits; the
plaintiff had no right or obligation to be a part of that internal process. Bowen v. Roy,
476 U.S. 693, 699–700 (1986).
Here, by contrast, setting an execution in the midst of a pandemic is more than
just a matter of ordering the Government’s “internal affairs,” like the “size or color of the
Government’s filing cabinets.” Bowen, 476 U.S. at 700. In fact, it is precisely because
Respondents exercise total control over Mr. Purkey and Mr. Honken, including the
environment for executions, that they have a special obligation to facilitate the spiritual
relationship between them and their spiritual advisors. See, e.g., Katcoff v. Marsh, 755
F.2d 223, 235 n.4 (2d Cir. 1985) (explaining that the “provision by state and federal
governments for chaplains in penal institutions” is a necessity “[s]ince government has
deprived such persons of the opportunity to practice their faith at places of their choice”).
Moreover, “the execution of a human being by the state is perhaps the most solemn and

24

significant act a government can perform. It should not be reduced to an invisible,
bureaucratic function.” United States v. Sampson, 300 F. Supp. 2d 278, 280 (D. Mass.
2004), aff’d, 486 F.3d 13 (1st Cir. 2007).
Just as important, neither Fr. O’Keefe nor Rev. Hartkemeyer can be labeled an
“incidental” bystander to the execution. As the priests with a sacred duty to minister
condemned prisoners, each clergy fills a critical role that has been recognized throughout
our Nation’s history, and is memorialized by Respondents’ own regulations. See supra p.
10; 28 C.F.R. §§ 26.4(b), 26.4(c)(3).
This Court very recently recognized the significance of a priest’s ability to engage
in religious exercise at the moment of a prisoner’s execution. See Gutierrez v. Collier,
No. 19-8695 (June 16, 2020) (granting stay of execution pending disposition of writ of
certiorari). Gutierrez raises a question under RFRA’s sister statute, the Religious Land
Use and Institutionalized Persons Act (RLUIPA), 42 U.S.C. § 2000cc et seq., as to
whether the state’s restriction of a priest’s ability to be present with a prisoner at the
moment of execution amounts to a substantial burden on religious exercise. By issuing
the stay, the Court demonstrated an understanding of the sacredness of the relationship
between priest and prisoner at that moment, which is of ultimate spiritual concern to
each.
Neither Fr. O’Keefe nor Rev. Hartkemeyer can be labeled an “incidental”
bystander to the execution. The view that Petitioners are merely incidental bystanders
is premised on an incorrect understanding of their spiritual relationship with Mr. Honken
and Mr. Purkey. The relationship between a priest and the prisoner to whom he ministers

25

is not a one-way street that provides spiritual benefit only to the prisoners. Rather, the
relationship between a priest and those to whom he ministers is mutual, and the spiritual
bond runs both ways. See, e.g., Prejean Decl., ECF No. 6-5, ¶¶ 5-8; Hartkemeyer Decl.,
ECF No. 6-2, ¶¶ 12-15. The nature of the spiritual connection between Father O’Keefe
and Mr. Honken, and Rev. Hartkemeyer and Mr. Purkey, is one in which the religious
liberty “interests of both parties are inextricably meshed.” See Procunier v. Martinez,
416 U.S. 396, 409 (1974). The religious exercise at issue in this case depends on the
participation of both the priests and the prisoners, so an intrusion into their spiritual
relationship at the moment of death “necessarily impinges on the interest of each.” See
id. Fr. O’Keefe’s and Rev. Hartkemeyer’s RFRA claims, therefore, are based on the
burdens they will suffer as a result of Defendants’ conduct, not the burdens suffered by
the prisoners. See id. (“The wife of a prison inmate who is not permitted to read all that
her husband wanted to say to her has suffered an abridgment of her interest in
communicating with him as plain as that which results from censorship of her letter to
him. In either event, censorship of prisoner mail works a consequential restriction on the
First and Fourteenth Amendments rights of those who are not prisoners.”); see also
Turner v. Safley, 482 U.S. 78, 97 (1987) (noting that state rule prohibiting prisoners from
marrying implicated the interests of nonprisoners because it “may entail a consequential
restriction on the [constitutional] rights of those” not incarcerated who wished to marry
a prisoner).
By forcing Petitioners either to perform their duties under the serious threat of
COVID-19, or forgo them altogether, Respondents’ conduct directly affects and regulates

26

each priest, imposing a substantial burden on his religious exercise. The safety protocols
proposed by Respondents are insufficient to alleviate that burden. The health and lives
of Fr. O’Keefe, Rev. Hartkemeyer, and those close to them will still be at grave risk if
each petitioner attends the respective executions.
II.

THE COURT OF APPEALS’ HOLDING THAT RESPONDENTS HAVE
DEMONSTRATED A COMPELLING INTEREST IS INCONSISTENT WITH THIS
COURT’S PRECEDENT
In light of the burden imposed on Petitioners, the Government must demonstrate

that its decision to schedule the executions during a pandemic—notwithstanding the
extraordinary danger it poses to Fr. O’Keefe, Rev. Hartkemeyer, and everyone
involved—is in “furtherance of a compelling governmental interest.” See 42 U.S.C.
§ 2000bb-1. Respondents’ burden is heavy, and even prison officials are not entitled to
“unquestioning deference” by courts applying this prong of RFRA. See Holt v. Hobbs,
574 U.S. 352, 364 (2015). 10 Rather, courts must “look[] beyond broadly formulated
interests justifying the general applicability of government mandates” and “scrutinize[]
the asserted harm” of denying the relief or alternative course of action proposed by the
religious claimant. See O Centro, 546 U.S. at 431; see also Hobby Lobby, 573 U.S. at 726
(noting that the governmental interest cannot be “couched in very broad terms”).
The Government cannot credibly argue that it has a compelling interest in moving
forward with the executions immediately, when its own actions contradict that alleged
interest. Where the Government has acted in a way that leaves “appreciable damage” to

10

Although Holt involved a RLUIPA claim, RFRA is RLUIPA’s “sister statute,” and
both laws apply the same legal standard. Holt, 574 U.S. at 357-358.
27

its alleged interest, RFRA’s compelling-interest prong is not satisfied. See O Centro, 546
U.S. at 433 (“[A] law cannot be regarded as protecting an interest “of the highest order”
. . . when it leaves appreciable damage to that supposedly vital interest unprohibited’)
(quoting Church of Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 547
(1993)).

For years, the Government did not seek to effectuate the interests it now

asserts. For example, Mr. Purkey was sentenced to death sixteen years ago, and his
federal habeas review concluded in 2014. Purkey v. United States, 135 S.Ct. 355 (2014);
see also Purkey v. United States, No. 19-3318, 2020 WL 3603779, at *4 (7th Cir. July 2,
2020) (“For many years—to be exact, since March 18, 2003, when Louis Jones, Jr. was
executed—the federal government has not carried out any executions.”). Mr. Honken’s
execution has been subject to similar delays of the Government’s own making. Having
delayed all these years in carrying out the death penalty, a further delay to accommodate
the presence of clergy to perform essential ministry during the prisoners’ hour of
greatest need does not interfere with any compelling interest on the part of the
Government.
Moreover, the Government’s asserted interest in proceeding with the executions
this week is undermined by the fact that the plan runs counter to other governmental
interests. The Government’s supervisory role over the thousands of prisoners detained
at USP Terre Haute prohibits the Government from showing deliberate indifference to
the conditions of confinement of those individuals. See, e.g., Banks v. Booth, No. CV 20849 (CKK), 2020 WL 3303006, at *12 (D.D.C. June 18, 2020) (plaintiffs likely to succeed
on constitutional deliberate indifference claims where Warden and Department of

28

Corrections Director failed “to take comprehensive, timely, and proper steps to stem the
spread of the virus”). Holding an execution that requires an enormous influx of people
contravenes the BOP’s bureau-wide policy of prohibiting visitation at prisons to reduce
COVID-19 spread, including at the Terre Haute facility. The Government’s choice to
schedule an execution at this time also frustrates compliance with its own regulations, as
FCC Terre Haute has not allowed in-person visitation for months, including from legal
counsel. Woodman Decl. ¶¶ 3-5, ECF No. 6-6 at 2-4.
III.

THE DISTRICT COURT’S HOLDING THAT RESPONDENTS ARE USING THE
LEAST RESTRICTIVE MEANS TO FURTHER THEIR I NTEREST CONFLICTS WITH
THIS COURT’S PRECEDENTS
Where a less restrictive means “is available for the Government to achieve its

goals, the Government must use it.” Hobby Lobby, 573 U.S. 682, 728 (2014) (emphasis
added). RFRA’s “least-restrictive-means standard is exceptionally demanding, and it
requires the government to show that it lacks other means of achieving its desired goal
without imposing a substantial burden on the exercise of religion by the objecting party.”
Holt, 574 U.S. at 364-65 (quoting Hobby Lobby, 573 U.S. at 728 (internal quotation marks
omitted)). The Government must demonstrate that it has actually considered other, less
restrictive measures and that they are inadequate before adopting the challenged
practice. See Holt, 574 U.S. at 368-69 (ruling that government had failed to show that
less restrictive means adopted by other prisons were inadequate for achieve its alleged
security interests); see also, e.g., Nebraska Press Ass’n v. Stuart, 427 U.S. 539, 563–64
(1976) (holding that, before issuing a gag order on media publication of details relating to
an upcoming high-profile trial, the Nebraska Supreme Court had improperly failed to
29

demonstrate the inadequacy of specified less restrictive alternatives). Here, the court of
appeals failed to hold the Government to the exceptionally demanding standard imposed
by RFRA’s least-restrictive-means prong. As this Court has counseled, “courts must
hold prisons to their statutory burden, and they must not ‘assume a plausible, less
restrictive alternative would be ineffective.’” Holt, 574 U.S. at 369 (quoting United States
v. Playboy Entertainment, 529 U.S. 803, 824 (2000)).
Respondents argue that they cannot indefinitely suspend the Government’s ability
to execute Mr. Purkey and Mr. Honken, but that is not what Petitioners ask. Petitioners
request that the execution be delayed only until a vaccine or effective treatment is
developed so that they may safely attend the executions and carry out their religious
obligations without risking their health and lives. Though it is not clear exactly when
this will occur, Dr. Anthony Fauci, the Government’s leading expert on the pandemic,
testified last month that a vaccine was a “matter of when and not if” and could be available
by the end of this year.11
Moreover, even if the executions are not delayed until an effective treatment or
vaccine is available, there exists still another less restrictive measure available to

11

COVID-19 vaccine a matter of ‘when not if,’ but must be produced safely: Fauci, CBC
(Updated June 23, 2020) https://www.cbc.ca/news/world/dc-house-coronavirus-briefing1.5623382.
See Trump Administration’s Operation Warp Speed Accelerates
AstraZeneca COVID-19 Vaccine to be Available Beginning in October, U.S. Dep’t of
Health
and
Human
Servs.
(May
21,
2020), https://www.hhs.gov/about/news/2020/05/21/trump-administration-acceleratesastrazeneca-covid-19-vaccine-to-be-available-beginning-in-october.html; see also Fact
Sheet: Explaining Operation Warp Speed, U.S. Dep’t of Health and Human Servs. (June
16, 2020), https://www.hhs.gov/about/news/2020/06/16/fact-sheet-explaining-operationwarp-speed.html.
30

Respondents than proceeding as currently planned: Respondents could, for example,
take additional steps to ensure Petitioners’ safety by addressing the risks in a much more
robust way—in particular, making changes to the ventilation system, which would
significantly decrease the risk of exposure and spread identified by Petitioners’ expert,
Dr. Goldensen. Goldenson Suppl. Decl. ¶ 12, ECF No. 57 at 3. Respondents do not deny
this possibility; they just cannot make these changes on their current, inexplicably rushed
timeline. ECF No. 81 at 3.

But, as this Court has explained, postponement of a

government event to an unspecified future time may be an appropriate less restrictive
means. See Nebraska Press Ass’n v. Stuart, 427 U.S. 539, 563–64 (1976) (holding that,
before issuing a gag order on media publication of details relating to an upcoming highprofile trial, the Nebraska Supreme Court had failed to make express findings that other
measures, including “postponement of the trial to allow public attention to subside” would
suffice). The Government’s general assertions that it cannot delay these executions for
any reason has not met its heavy burden. See Askins v. U.S. Dep’t of Homeland Sec., 899
F.3d 1035, 1045 (9th Cir. 2018) (“It is the government’s burden to prove that these specific
restrictions are the least restrictive means available to further its compelling interest.
They cannot do so through general assertions of national security, particularly where
plaintiffs have alleged that CBP is restricting First Amendment activities in traditional
public fora such as streets and sidewalks.”); see also Hobby Lobby, 573 U.S. at 728 (“HHS
has not shown that it lacks other means of achieving its desired goal without imposing a
substantial burden on the exercise of religion by the objecting parties in these cases”).

31

The Government’s interest is in carrying out the criminal sentences imposed—not
in doing so on this particular date. That interest will not be diminished by a brief delay
that accommodates Petitioners’ most sacred duties.
carrying out the executions can be effectuated

The Government’s interest in

in a less restrictive way—namely,

postponing the executions until a time at which it is not “effectively impracticable” for
Fr. O’Keefe and Rev. Hartkemeyer to safely fulfill their sacred duties as spiritual
advisors.
For all of these reasons, review is warranted, and this case offers an appropriate
vehicle to consider and resolve these significant free-exercise questions and correct the
errors of the courts below.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
MICHAEL M. KRAUSS
KYLE R. FREENY
ABIGAIL A. CLAPP
EDWARD C. WALLACE
GREENBERG TRAURIG,
LLP

JULY 2020

DOUGLAS HALLWARD-DRIEMEIER
MARIA G. CALVET
MICHELLE H. BEHRENS
JOHN T. DEY
ROPES & GRAY LLP
DAVID D. COLE
DAVID C. FATHI
DANIEL MACH
CASSANDRA STUBBS
HEATHER L. WEAVER
JENNIFER WEDEKIND
AMY FLY
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
Counsel for Petitioners

32

